                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A05100072                                                                       Page 1 of 1



                 We received an allegation of plagiarism by the subject1in a proposal submitted to N S F . ~
         We referred the investigation to the subject's university. The university investigation confirmed
         plagiarism in the NSF proposal; the university made a finding of research misconduct and took
         actions against the subject. We prepared a report of investigation recommending that NSF: make
         a finding of research misconduct; issue a letter of reprimand to the subject; require the subject,
         for a period of two years, certify that his proposals submitted to NSF do not contain plagiarized,
         falsified, or fabricated material; and require the subject, within one year, to complete a course in
         research ethics. The NSF Deputy Director made a finding of research misconduct and adopted
         our recommendations.

                   Accordingly, this case is closed.




          I
              Redacted.
              Redacted.



NSF OIG Form 2 (1 1/02)
 ..:
  . ..             .
                         .
                       ...
                        .
                             . ..
           .       .                                                      '   ,   NATIONAL SCIENCE FOUNDATION
                                .       .
                                                                                         4201 WILSON BOULEVARD       .   .

                               .                .                     .             ,   ARLINGTON, VIRGINIA 22230'




 - -               -    CFFICE OF THE-.                  ..
       .       .       DEPUTY DIRECTOR                        . . .                                           . .

                         .          .

'CERTIFIED MAIL --RETURN RECEIPT REQUESTED
                               .            .




                                Re: A'otice ofMisconduct irz Scierzce Determination



                                   In 2003, you submitted a proposal to the National Science Foundation ("NSF") entitled,


of Inspector General ("OIG"), this proposal contained plagiarized text.

Scientific Misconduct and Proposed Sanctions
        Under NSF's regulations, "research nlisconduct" IS defined as "fabrlcatlon, falsification,
or plagiarism in proposing or performing research funded by NSF . .." 45 CFR § 689.1(a). m F
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 5 689.1(a)(3) A finding o f research misconduct
requires that:

                                    (1) There b e a significant departure from accepted practices of the relevant research
                                        community; and
                                    (2) The research ~njsconductbe committed intentionally, or knowingly, or recklessly; and
   :                                (3) The allegation be proven by a preponderance of evidence.

4 5 CFR                                     5 689.2(c)
              Your proposal contains \!erbatim and parapl~rasedtext from several source documents,
 i~icluding~ ~ u m e r ojournal   us        a~ticles.By submittjnga proposal t o NSF that copies the ideas or
             s anorher 1Klithout adequate attribution, as described in the OIG. Investigative Report: you
' ~ j o i d of
 IIIISI-epresentedsomeone clse's ~vol-kas your own. 111 addition, you fajled t o properly
  a c l i ~ ~ ~ \ + : l e01.
                          d gcl-edil
                              c      lhe i ~ l i l l l oof~ 111eso~lrcedocumebls in you]- pi-ol,osals. 1 ' 0 ~ 1conduc~
                                                                                                                 -
  unqi~es~ionabl!:         c o ~ ~ s ~ i ~1~1i1giaris11~.
                                            ulec               I 11iereli-econclude 1ha1 youi- acljons m e e ~tlie definil~on
                                                                                                ..   .
J
                                                                 .   .                     ..   .        .                      .          ..
                                       .   .
                                                             .   ,       .                                       Page 2 .
                                                                                                     .   .
                                                                                                             .   .
        o f "research misconduCtnset forth in NSF's regulations.
    .     .                                                                                                                     . .
                                                                                                                            .         ..
                 Pursuant to NSFregulations, the Foundation must also determine whether to make a
        finding of misconduct based on a preponderance of theevidence. 45 CFR 8 689.2(c). ' ~ f t e r
         reviewing the h~vestigativeReport and the university Committee Report, NSF has determined
        'that, based on 3 preponderance of the evidence, your              was committed knowingly and
         Mnstituted a significant 'departure from accepted practices of the relevant research community. I
         am, therefore, issuing a finding of research misconduct against you.

                 NSF's regulations establish three categories of actions (Group I, II, and 111) that can be
        taken in response to a finding of misconduct. 45 CFR $689.3(a). Group I actions include issuing
        a letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
        requiring that an inslitution or individual obtain special prior approval of particular activities
        from NSF; and requiring that an institutioilal representative certify as to the accuracy of reports
        or certifications of compliance with particular requirements. 45 CFR $689.3(a)(I). Group 11
        actions include award suspension or restrictions on designated activities or expenditures;
        requiring special reviews of requests for funding; and requiring correction to the research record.
        45 CFR $689.3(a)(2). Group 111 actions include suspension or termination of awards;
        prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
        suspension from participation in NSF programs. 45 CFR fj 689.3(a)(3).

                In determining the severity of the sanction to impose for research misconduct, I have
        considered the seriousness of the misconduct, our determination that it was knowing,as well as
        our determination that it was a part of a pattern of plagiarism. I have also considered the fact that
        your misconduct did not have a significant impact on the research record, your willingness to
        accept responsibility for your actions, and the contrition that you demonstrated during the course
        of the investigative process. I have also considered other relevanl circumstances. 45 CFR $
        689.3 (b).

                In light of the foregoing, I am requiring that, from the date of this letter until January 1.
        2009, you certify that any proposal you submii as a principal investigalor or co-principal
        investigator does not contain plagiarized, falsified, or fabricated material. In addition, by January
        1, 2008, you must certify that you have attended a course on research ethics. W e recognize that
        you have completed, or in the process of completing, an on-line course, and believe that
        additional coursework would serve to reinforce what you have learned. Such certifications
        should be submitted in writing to the Office of Lnspector General, 4201 Wilson Boulevard,
        Arlington, Virginia 22230.

        Procedures Governing Appeals.
                Cnder NSFysr e g ~ i l a ~ i oyou
                                               ~ ~ shave
                                                     : 30 days after receipt ofthis letter to submit an appeal
        of tl~isdecision, in ~vriring,to the Director ofthe Poundation. 45 CPR $689. I @(a)..411)/appeal
        .~I~ouldbe addressed lo Ihe Director at l.he National Science Founda~ion,4201 Wilson Boulevard,
        Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
                                                                .    .
                                                                                                                            .       ..
                                ...
                                .     .       . .       .
                                                                                     .   .            ::
                                                                                                    . . .. Page 3       .. . ..    ..             .
                                                                                                                    .           . ..
                decision will become-final. For your inforrnit&n.we are attaching B copy of the applicable                      .        ..

                regulations. If you have.any questions about the foregoing,      call              , Assistant
.   .
                General counsel, at (703) 292-8060..                                 . .   .   .             .      .   .




                                                                      .   .

        .   .                             .         .
                                                                                                                                                      .
                                                            .       . .   .   '   Sincerely,                                                  .




                                                                                  Kathie L. Olsen
                                                                                  Deputy Director

                                               . .
                Enclosures     . ..'.

                - Investigati~eReport
                - 45 C.F.R. part 689
                                             Summary

        The Office of Inspector General (OIG) concludes that the subject1 committed research
misconduct by plagiarizing in proposals submitted to the National Science Foundation (NSF),
and to other Federal agencies. Based on the results of our investigation, OIG concludes that the
evidence supports a finding of research misconduct, and recommends that NSF:

       send a letter of reprimand to the subject informing him that NSF has made a finding of
       research misconduct;

       require the subject to certify that proposals or reports he submits to NSF do not contain
       plagiarized, falsified, or fabricated material for 2 years after the date of a finding of
       research misconduct; and

       require the subject to submit proof to OIG of attendance at a research ethics course within
       one year of the finding of research misconduct.




       and -
        We received an allegation that a                 proposal2 written by the subject
contained copied text. We wrote to the subject to obtain his perspective of the issue (Tab I). In
his response (Tab 2), the subject admitted that he copied text from the work of others into his
NSF proposal, but that he simply forgot to rephrase and cite the material. He stated that this
error was a one-time occurrence in his                  proposal,3 and then propagated into his
                           proposals when he re-used the same text.

       The subject's explanation did not dispel the allegation. The amount of duplicated text
was substantive enough to advance from inquiry to investigation. Consistent with our practice,
we referred the investigation to the subject's university5 (Tab 3).

                             University's Inquiry and Investigation

       The University convened an Investigation Committee (IC) to review the matter. We
received a copy of the IC report (Tab 4), and a letter (Tab 5 ) , which describes adjudicative action
taken by the University. Based on our review of the IC report, we conclude that the IC followed
reasonable procedures in its investigation, and that its report is accurate and complete.

       The IC examined the subject's                  proposal, the alleged source documents,
and the subject's response letter to NSF OIG. In addition, the IC examined ten other proposals
the subject submitted through his University to a variety of funding agencies. The IC examined
325 phrases from these proposals, and used each phrase as a keyword submitted to the Google
Scholar search engine.6 The phrases selected for search were not differentiated in the subject's
proposals by the use of quotation marks or other distinguishing marks'.

        The IC identified additional evidence of copied text in the subject's other proposals. The
IC used these additional examples of copied text to impeach the subject's explanation that his
actions were a one-time example of carelessness in proposal preparation. The IC considered the
results fiom its examination of the subject's proposals to be emblematic rather than
comprehensive, as it 1) did not examine all of the subject's proposals; 2) did not examine all of
the text in each of the proposals examined; and 3) realized some of the probable limitations of
the Goggle Scholar search engine.

        Line totals for significant passages of copied text in the subject's proposals appear in the
table, and suggest a pattern of copying by the subject.

Subject's document                          Number of lines of duplicated text

NSF ~ r o ~ o s a l ~                       43 lines
DOE Proposal 1                              35 lines
DOE Proposal 2                              29 lines

TOTAL                                       107 lines

        The IC concluded that the ~ r e ~ o n d e r a n of
                                                        c ethe evidence moved that the subiect
knowingly plagiarized text into his                        proposal, and h a t his actions were a
significant departure fiom accepted practices. Further, the IC concluded that the evidence it
gathered did &t support the s ~ b j e c t claim
                                          ~ s that his actions in the NSF proposal were a one-time
act of carelessness, but instead supported the conclusion that the subject's actions were part of a
pattern of plagiarism in numerous proposals to several funding agencies.

       We note that the IC did not interview the subject directly. The Vice Provost of the
University states that the subject declined to be interviewed by the IC. However, the subject
received a copy of the IC report, and provided a written response in which he accepted the report
"unconditionally," and stated that he was "taking the responsibility of any plagiarized materials
found in any of my proposals."



   The IC used Google Scholar to manually search sections of texts from the subject's proposals. When a match to
a web text was indicated, the IC expanded the search to a longer word string, and then examined the original source
document (if available) to confirm the duplication.
'  The tabre entry refeis to lines of duplicated text in                 proposal, and does not recount the same
duplicated lines that appear in earlier versions of that proposal.
8
   The IC report provides brief descriptive material for each Department of Energy (DOE) proposal, and then
    -   '




sections of text in which duplications were found. The University provided a CD with full copies of the proposals
submitted by the subject.
9
   Subject's letter of May 16,2006, included with the IC report at Tab 4, page 2.
        The University took the following actions: 1) issued a letter of reprimand to the subject;
2) asked for the resignation of the subject from his tenure-track Assistant Professor position, and
offered to the subject an immediate re-appointment into a non-tenure-track position, renewable
annually for up to three years. lo The University states that the subject may apply for a tenure-
track faculty position that may be available in the department at the end of the three-year period,
but the University will not accept an application from the subject before the end of the three-year
period. In a                letter, the subject resigned his faculty position, effective
     .
                                          OIG's Assessment

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community, that (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the evidence. 12

                                                      The Acts

        A total of 43 lines of text was copied by the subject into a proposal submitted to NSF.
Several contiguous paragraphs of duplicated text appeared in the proposal's background and
introductory sections, without quotation marks or other differentiating forms, and sometimes
without citation to the source. In his response letter to our inquiry (Tab 2), the subject admitted
that he copied the text, and that he did not have the original authors' permission to do so.
Duplicating the words of others, especially without citation, represents a deliberate choice by the
subject. In offering text written by others as his own words, and in providing those words as
emblematic of his own understanding of the research field, the subject departed from the
accepted standards of the research community.

                                                        Intent

        In his response letter, the subject states that he "copied the paragraphs with an intention
to properly cite the authors and rewrite according to the need of my proposal. Basically I .cut and
pasted from a manuscript and in my rush, failed to insert the reference and failed to rewrite the
text."13 In his response letter to the IC report, the subject denies an intention to deceive
anyone. l 4 However, the action of "cut-and paste" is itself clearly a knowing act. Although the
subject claims in his response letter to our inquiry that the actions in his NSF proposal were the
result of a careless error, we agree with the ICYsconclusion that the subject knowingly copied the
text into his NSF proposal.

'O Other conditions on the re-appointment include a) no merit salary increases for the first of the three possible
years of his appointment; b) completion of a course on scientific ethics and research integrity; c) development of a
research integritylethics training module for the University; d) presentations on research ethics to graduate students
and faculty at the University; and e) certifications and assurances made to the Office of Sponsored Programs that
any proposals submitted through the University meet the most rigorous standards of originality of work and
appropriate citation. The subject has accepted these conditions.
" Tab 5, page 12.
''
13
    45 C.F.R. §689.2(c) (2002).
    Tab 2, page 1 .(Emphasis in subject's original response).
14
    Tab 4, page 2.
                                         Standard o f Proof

        The IC concluded that a preponderance of the evidence supports the conclusion that the
subject acted knowingly when he copied text into his                       proposal, and that his
actions represent a significant departure from accepted practices. We concur with the IC's
conclusion, which is also supported by the subject's admitted actions of "cut-and-paste" copying.
We conclude that the subject committed plagiarism, and therefore committed an act of research
misconduct.

                                 OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

         (I) How serious the misconduct was; (2) The degree to which the misconduct was
         knowing, intentional, or reckless; (3) Whether it was an isolated event or part of a
         pattern; (4) Whether it had a significant impact on the research record, research
         subjects, other researchers, institutions or the public welfare; and (5) Other relevant
         circumstances.r151

                                             Seriousness

        A total of 43 lines of copied text was duplicated verbatim by the subject into =
                 proposal. This duplicated text consisted of blocks of text written by others, who
were not cited in the subject's proposal. The subject presented these words to the program
officers and reviewers of the proposal as products of his own composition. The subject's actions
represent a breach of ethical conduct.

                                           Degree o f Intent

        We conclude that the subject's intent was knowing, based on the subject's admission of
purposefbl "cut-and-paste" duplication of text. The subject's claim of carelessness in not
-    -


providing a citation or quotation marks for the duplicated text is belied by the recurrence of the
plagiarism in three versions of the           proposal.

                                               Pattern

       Our inquiry identified plagiarized text in the su
same duplicated text occurred in two previous versions
proposal. The University IC also examined the subject's other proposals, and found plagiarism
in proposals submitted to other Federal agencies. Although thesubject's response letter to NSF
OIG describes the plagiarism in                      proposals as an isolated incident, additional


l5   45 C.F.R. 5 689.3(b).


                                                   4
documented instances of his plagiarism undermine his explanation, and establish a pattern of
behavior by the subject.

                                              Impact on the research record

       The                 proposals in which the plagiarism occurred were declined for funding
and therefore we conclude that the impact on the research record itself was minimal.

                                                Mitigating Factors

        The subject cooperated with our inquiry, and provided a prompt response to the OIG
inquiry letter. While declining to be interviewed.by the University IC, the subject provided a
written response to the IC report and accepted responsibility for the duplications of text.

                                          Other relevant circumstances

          We find no other relevant circumstances.

                                                 Recommendation

          Based on the evidence in this case, NSF OIG recommends that NSF:

                   send a letter of reprimand to the subject informing him that NSF has made a
                   finding of research misc~nduct;'~

                   require the subject to certify that proposals or reports he submits to NSF do not
                   contain plagiarized, falsified, or fabricated material for 2 years after the date of a
                   finding of research misc~nduct;'~    and

                   require the subject to submit proof to OIG of attendance at a research ethics
                   course within one year of the finding of research misc~nduct.'~


                            The Subiect's Response to Draft Investigation Report

         The subject received a copy of the draft investigation report for comments, and responded
by letter dated September 20,2006 (Tab 7). The subject accepted the draft investigation report
and provided no factual corrections. In his response letter, the subject provided documents that
attest to his completion of an on-line ethics course.lg


16
     A letter of reprimand is a Group I action. 45 CFR § 689.3 (a) (l)(i).
"    Certification from an individual for proposals submitted to NSF is considered to be a Group I action.
     45 CFR 4 689.3 (1).
        The university amended its own investigation report (Tab 8) whle the subject was
considering our draft investigation report. The university report originally identified a passage in
a proposal submitted to another Federal agency by the subject as plagiarized. However, in
reviewing the report, the Vice President for Research could find no evidence that the indicated
text actually appeared in the submitted proposal. A letter from the subject on this issue is
included in the university's amendment of its investigation report. We made the appropriate
changes to our own draft investigation report. However, this new information did not cause us to
alter our conclusions or our recommendations.
